IN THE
SUPREME COURT OF THE UNITED STATES
NO. 20-875
Sok Kong, Trustee for the next of kin of
Map Kong, Decedent,
Petitioner,
v.

CERTIFICATE OF SERVICE

City of Burnsville,
Maksim Yakovlev, in his individual and
official capacity, John Mott, in his individual
and official capacity, and Taylor Jacobs, in
his individual and official capacity,
Respondents.
I certify that on February 18, 2021:
Respondents’ Letter/Motion for Extension to File Response to
Petition for Writ of Certiorari
was filed with the Court via ECF and that a copy of same was sent via U.S. mail and e-mail
to the following attorneys at their last known addresses listed below:
Steven J. Meshbesher
Richard E. Student
MESHBESHER & ASSOCIATES
9800 Shelard Pkwy, Ste. 310
Minneapolis, MN 55441
steve@stevemeshbesher.com
rich@stevemeshbesher.com
Dated: 2/18/21

David M. Shapiro
RODERICK & SOLANGE
MacArthur Justice Center
Northwestern Pritzker School of Law
375 E. Chicago Ave.
Chicago, IL 60611
david.shapiro@law.northwestern.edu

JARDINE, LOGAN & O'BRIEN, P.L.L.P.
By: s/ Joseph E. Flynn
JOSEPH E. FLYNN (#165712)
8519 Eagle Point Boulevard, Suite 100
Lake Elmo, MN 55042-8624
Phone: 651-290-6500
jflynn@jlolaw.com
Attorneys for Respondents

